DOE/IG-0473




         AUDIT
        REPORT

                                CAMPAIGNING ACTIVITIES
                                          BY
                                 POLITICAL APPOINTEES




                                          MAY 2000




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                            May 31, 2000


MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman (Signed)
                       Inspector General

SUBJECT:               INFORMATION: Audit Report on "Campaigning Activities by
                       Political Appointees"

BACKGROUND

In a letter to the Office of Inspector General dated February 29, 2000, the Chairman, Senate
Committee on Governmental Affairs, requested information concerning the political activities
conducted by Departmental employees. The Committee also made similar requests to other
Executive Branch Inspectors General.

We performed an audit to determine whether campaigning activities by Departmental employees in
politically sensitive positions were in accordance with applicable laws and policies and were not
interfering with their official duties. We examined 90 trips taken during the 2-year period from
March 1, 1998, through March 1, 2000, including trips in which you participated. We also
reviewed trips taken by Deputy Secretary Glauthier, Under Secretary Moniz, and former Secretary
Peña. In addition, we randomly selected trips taken by other Department employees in politically-
sensitive positions

RESULTS OF AUDIT

Based on our review, we did not identify any instances of campaigning activities by Department
employees that were not in accordance with applicable laws and regulations.
However, we identified an area of concern regarding the internal controls relating to documentation
and receivables. The Department committed to strengthen these controls.

Appendix 1 contains key data from the review and is an integral part of the audit report.

Please feel free to contact me should you desire to discuss any of the issues further.

Attachment

cc:    Deputy Secretary
       Under Secretary
       General Counsel
       Chief Financial Officer
Campaigning Activities by Political Appointees

TABLE OF
CONTENTS




                Campaigning Activities by Political Appointees

                Introduction And Objective ................................................................... 1

                Conclusions And Observations ............................................................ 1


                Appendices

                1. Requested Information .................................................................... 4

                2. Scope and Methodology .................................................................. 6
Campaigning Activities by Political Appointees
INTRODUCTION AND      The Hatch Act establishes the restrictions on political activities by
OBJECTIVE             Federal civilian employees. Passed in 1939 and significantly amended
                      in 1993, the Hatch Act and its implementing regulations reflect the
                      Congress' determination that partisan political activity by Federal
                      employees must be limited for public institutions to function fairly and
                      effectively.

                      In a letter to the Office of Inspector General dated February 29, 2000,
                      the Chairman, Senate Committee on Governmental Affairs requested
                      information concerning the policies and practices of political activities
                      conducted by Departmental employees. The Committee also made
                      similar requests to other Executive Branch Inspectors General.
                      Appendix 1 contains a discussion of the requested information.

                      We performed an audit to determine whether campaigning activities by
                      Departmental employees in politically sensitive positions were in
                      accordance with applicable laws and policies and were not interfering
                      with their official duties. As part of the audit, we obtained and
                      reviewed Departmental policies and procedures, examined travel
                      records of selected Departmental officials, and interviewed a sample of
                      senior individuals within the Department concerning their campaigning
                      activities. The audit scope and methodology are more thoroughly
                      described in Appendix 2.

CONCLUSIONS AND       Based upon our review of 90 selected trips, we did not identify any
OBSERVATIONS          instances of campaigning activities by Departmental employees that
                      were not in accordance with applicable laws and regulations.
                      Additionally, through interviews with senior Departmental officials, we
                      did not identify any circumstances where employee campaigning
                      activities interfered with their official duties. However, we identified
                      an area of concern regarding the internal controls relating to
                      documentation and receivables.

                      We determined that former Secretary Peña, Secretary Richardson, and
                      one other senior Departmental official conducted a total of 16 trips
                      involving both official and political components during the 2-year
                      period under review. In addition, a fourth official engaged in
                      campaigning activities that did not involve any official travel.
                      According to the Office of the Secretary, Secretary Richardson has
                      spent approximately 56 hours campaigning and nearly 3,000 hours
                      conducting official business since joining the Department in August
                      1998. We did not determine the amount of time former Secretary Peña
                      spent campaigning because he and his staff are no longer with the
                      Department. The remaining two officials stated that their campaigning
                      activities involved less than one percent of their total time, which was
                      defined as 24 hours a day, 7 days a week.
Page 1                                                          Introduction And Objective/
                                                             Conclusions And Observations
                                            The Department has a system of policies and procedures in place to
                                            govern the political campaigning activities of Departmental employees.
                                            Specifically, the Department actively informs its employees about the
                                            Hatch Act and its political campaigning restrictions. Although the
                                            policy is the responsibility of the U.S. Office of Special Counsel, the
                                            Department's Office of the General Counsel provides periodic updates
                                            to Departmental employees and typically incorporates information
                                            about political campaigning restrictions into annual ethics briefings.

                                            In addition, the Department maintains and follows prescribed guidance
                                            for travel reimbursement claims. Specifically, the Capital Accounting
                                            Center Travel Division, with assistance from the Office of the General
                                            Counsel, ensures compliance with Departmental orders and White
                                            House policy when processing claims that involve a political
                                            component.1 We noted significant improvements in the Travel
                                            Division's practices and procedures since the issuance of our report on
                                            Inspection of the Secretary of Energy's Foreign Travel in October 1996
                                            (DOE/IG-0397).

                                            An area of concern was identified during the audit relating to internal
                                            controls over documentation and receivables. Changes in this area, if
                                            properly implemented, would further enhance the Department's
                                            processing of travel involving a political component. Specifically, we
                                            identified five instances where support documentation and controls over
                                            receivables were not sufficient to initially determine if costs were
                                            properly reimbursed for Secretarial travel involving a political
                                            component. Working with the Office of Scheduling and Advance, the
                                            Office of the General Counsel, and the Capital Accounting Center
                                            Travel Division, we received additional documentation and analyses.
                                            Based upon this information, we determined that the Department was
                                            owed a net amount of approximately $200. The Office of Scheduling
                                            and Advance has acted to collect amounts owed to the Department.
                                            Additionally, we discussed the internal control matters with the Office
                                            of Scheduling and Advance and the Capital Accounting Center Travel




 1
     For non-Secretarial travel, claims are prepared by the traveler's respective program office, without input from the Office
     of the General Counsel. While the Office of the General Counsel advises employees to seek its advice on such matters,
     it is incumbent on the traveler to inform the Department of any political activities.

Page 2                                                                                    Conclusions And Observations
         Division, which agreed to develop and implement procedures to
         strengthen and improve the control structure. The Office of Chief
         Financial Officer will monitor the implementation of corrective actions
         through the Departmental Audit Report Tracking System.




                                               (Signed)
                                      Office of Inspector General




Page 3                                        Conclusions And Observations
Appendix 1

                                       REQUESTED INFORMATION


During our audit, we obtained information related to the following seven areas:

       (i) Departmental policies and guidelines regarding political activity by employees

            Regarding the political activities of Departmental employees, the Department relies on
            external guidance from the U.S. Office of Special Counsel and the Counsel to the President.
            For example, the Department's Office of the General Counsel disseminates information
            about political restrictions based on guidance issued by the U.S. Office of Special Counsel
            {see Item (vi)}.

       (ii) The process within the Department to review claims for official travel

            The process the Department uses to review Secretarial travel claims is different from that
            used to review non-Secretarial travel claims. Secretarial travel claims are reviewed using a
            proactive process. For example, the Office of the General Counsel, the Capital Accounting
            Center Travel Division, and the Office of Scheduling and Advance work closely together
            prior to and after Secretarial travel in order to ensure that the trip complies with applicable
            policies and guidelines {see Item (iii)}. In addition, the Capital Accounting Center Travel
            Division audits all Secretarial travel claims.

            Non-Secretarial travel claims are reviewed using a more traditional approach. In general,
            claims for official travel are prepared by the traveler's respective program office, without
            input from the Offices of the General Counsel or Scheduling and Advance. However, the
            Office of the General Counsel encourages Departmental employees to seek its advice when
            engaging in political activities, including travel. Regardless of whether the claims are
            submitted electronically or in a hard copy format, they are subject to selection by the Travel
            Division for a post-trip audit.

      (iii) Departmental policy with regard to combining official travel with political travel

            For combining official travel with political travel (mixed travel), the Department uses
            guidance issued by the White House. Specifically, memoranda from the Counsel to the
            President are used by the Offices of the General Counsel and Scheduling and Advance when
            advising Departmental employees involved in political travel and for calculating mixed
            travel reimbursements. For example, the memoranda outline specific policies and formulas
            for use in calculating the proper allocation of time and expenses.




Page 4
     (iv) The number of trips taken by Departmental employees or officials involving a mix of official
          and political travel

             Based on a sample of politically appointed Department officials, we determined that former
             Secretary Peña, Secretary Richardson, and one additional senior official conducted mixed
             travel during the 2-year period under review. Former Secretary Peña had one instance of
             mixed travel out of a total of eight Departmental trips. Of Secretary Richardson's 93
             Departmental trips, 14 involved mixed travel. Through interviews with senior Departmental
             officials and reviews of their travel vouchers, we identified one additional individual who
             engaged in a single trip involving a mix of official and political travel.

         (v) Whether any staff, including but not limited to protective details or advance personnel,
             have accompanied political appointees on travel involving a political component

             The Secretary is generally accompanied by four individuals – including protective details
             and staff liaisons – on each portion of a trip, regardless of the trip's nature. Based on the
             audit work performed, we did not identify any other instances where staff employees
             accompanied political appointees on travel involving a political component.

     (vi) The systems within the Department to ensure that employees are abiding by the Hatch Act

             The Office of the General Counsel has assumed primary responsibility for distributing Hatch
             Act information to employees. It develops training materials using U.S. Office of Special
             Counsel guidance that it typically incorporates into mandatory annual ethics briefings of
             Departmental employees. In addition, it periodically provides Departmentwide Hatch Act
             reminders via the Internet. Further, the Office of the General Counsel provides Hatch Act
             briefings to political appointees during their initial vetting and interview process or at the
             request of a particular program or official.

    (vii) How much time those employees who are appointed by the President and confirmed by the
          Senate spent campaigning over the last 2 years

             Based on our sample of politically-appointed, Senate-confirmed Departmental officials, we
             identified the three individuals mentioned in (iv) above, plus one additional senior official as
             having engaged in campaigning activities during the last 2 years. We did not determine the
             amount of campaigning time spent by former Secretary Peña, since he and his staff are no
             longer with the Department. According to the Office of the Secretary, Secretary Richardson
             has spent approximately 56 hours involving campaigning activity and nearly 3,000 hours
             conducting official business since joining the Department in August 1998. The other two
             senior officials both categorized their campaigning activities as involving less than one
             percent of their total time, which was defined as 24 hours per day, 7 days a week.




Page 5
Appendix 2

SCOPE         The audit was performed at the Department of Energy Headquarters in
              Washington, DC and at Germantown, MD, from March 17 through
              May 30, 2000. The audit covered the period March 1, 1998, through
              March 1, 2000, and included Departmental employees in the following
              three personnel categories: Presidential appointees who have been
              confirmed by the Senate, Non-Career Senior Executives, and Schedule
              C employees grades GS-13 through GS-15.


METHODOLOGY   We performed the following steps to address our audit objective.

                                        Policies and Processes

              We held discussions with personnel from the Office of the General
              Counsel and the Capital Accounting Center Travel Division to
              determine the policies and guidelines applicable to political activity by
              employees. We also held discussions with personnel from the Office of
              the General Counsel, the Capital Accounting Center Travel Division
              and the Office of Scheduling and Advance to determine the process for
              the review of travel claims for travel containing a political component.

                        Number of Trips Containing a Political Component

              We conducted a sample of travel by employees in politically sensitive
              positions. The sample encompassed judgmental as well as random
              selections. The judgmental sample selections included former
              Secretary Peña, Secretary Richardson, Deputy Secretary Glauthier, and
              Under Secretary Moniz. In addition, we randomly selected 10
              employees from a listing of 124, which was provided by the Office of
              Headquarters and Executive Personnel Services. The listing included
              all employees in one of the three personnel categories as of
              March 1, 2000.

              For Secretaries Peña and Richardson, we reviewed a total of 33 trips
              conducted during the period under review, including:

              •   A sample of 10 official trips (Peña: 1, Richardson: 9);
              •   15 trips identified as containing both an official and political
                  component (Peña: 1, Richardson: 14); and
              •   8 trips identified as political (Richardson).




Page 6                                                       Scope and Methodology
         For the other 12 employees in our sample, we selected and reviewed up
         to five randomly selected trips for each individual. We also contacted
         all of the selected employees and asked if they had taken any trips
         containing a political component during the time period under review.
         One individual identified a single trip not selected in our sample, so we
         included this additional record in our review. A total of 57 non-
         Secretarial trips were examined.

         All selected travel vouchers were reviewed and compared with
         supporting documentation to verify the type of travel conducted
         (official, mixed, or political). Any trip that was identified as having a
         political component was further reviewed to determine whether (1) cost
         allocations were done in accordance with applicable laws and policies,
         (2) White House policy payment rules were followed, and (3) costs for
         travel associated with campaigning activities were properly reimbursed
         to the Department.

                                   Accompanying Staff

         We reviewed files maintained by the Capital Accounting Center Travel
         Division for the selected employees to determine whether staff had
         accompanied them on travel containing a political component. We also
         held discussions with personnel from the Office of Scheduling and
         Advance to determine the number of staff that generally accompany the
         Secretary during his travel.

                                        Hatch Act

         We reviewed the Hatch Act and held discussions with personnel from
         the Office of the General Counsel to determine the system for
         disseminating Hatch Act information to Departmental employees.

                                Time Spent Campaigning

         With the exception of Secretaries Peña and Richardson, each employee
         in our sample who was appointed by the President and confirmed by
         the Senate was contacted and asked about the amount of time they
         spent campaigning during the 2 years under review. For Secretary
         Richardson, we requested this information from his staff.




Page 7                                                Scope and Methodology
         The audit was performed in accordance with generally accepted
         Government auditing standards for performance-related audits and
         included tests of internal controls and compliance with laws and
         regulations to the extent necessary to satisfy the audit objective. In
         addition, we reviewed performance measures in accordance with the
         Government Performance and Results Act. Because our review was
         limited, it would not necessarily have disclosed all internal control
         deficiencies that may have existed. We relied on a minimum of
         computer-processed data to accomplish our audit objective.

         The Office of the General Counsel, the Capital Accounting Center
         Travel Division, and the Office of Scheduling and Advance waived
         an exit conference.




Page 8                                                 Scope and Methodology
                                                                               IG Report No. DOE/IG-0473

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
  The Office of Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
                   through the Internet at the following alternative address:


            U.S. Department of Energy Office of Inspector General, Home Page
                                http://www.hr.doe.gov/ig

Your comments would be appreciated and can be provided on the Customer Response Form
                               attached to the report.
